No.

 

 

IN THE
Supreme Court of the Anited States

ANTONIO DESHAWN PITT,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
MOTION TO PROCEED JN FORMA PAUPERIS

Petitioner Antonio Deshawn Pitt, though undersigned counsel, asks leave to
file the attached petition for a writ of certiorari without prepayment of costs and to
proceed in forma pauperis. Counsel was appointed in the United States Court of
Appeals for the Fourth Circuit and in the United States District Court for the
Eastern District of North Carolina pursuant to 18 U.S.C. ยง 3006A.

This the 12+ day of August, 2020.

Respectfully ubmitted,

   
 

CHIEF APPELLATE ATTORNEY

OFFICE OF THE FEDERAL PUBLIC DEFENDER
EASTERN DISTRICT OF NORTH CAROLINA
150 Fayetteville St., Suite 450

Raleigh, N.C. 27601

(919) 856-4236

Eric_Brignac@fd.org

Counsel for Petitioner
